Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



  NOT ALL RECOMMENDED
  FRAUD SAFEGUARDS HAVE
   BEEN IMPLEMENTED IN
      HOSPITAL EHR
       TECHNOLOGY




                    Daniel R. Levinson
                     Inspector General

                     December 2013
                     OEI-01-11-00570
EXECUTIVE SUMMARY: Not All Recommended Safeguards Have Been
Implemented in Hospital EHR Technology
OEI-01-11-00570

WHY WE DID THIS STUDY
Electronic health records (EHRs) replace traditional paper medical records with
computerized recordkeeping to document and store patient health information. Experts in
health information technology caution that EHR technology can make it easier to commit
fraud. The Office of the National Coordinator for Health Information Technology
(ONC), which coordinates the adoption, implementation, and exchange of EHRs,
contracted with RTI International (RTI) to develop recommendations to enhance data
protection; increase data validity, accuracy, and integrity; and strengthen fraud protection
in EHR technology. This study determined how hospitals that received EHR Medicare
incentive payments, administered by the Centers for Medicare & Medicaid Services
(CMS), had implemented recommended fraud safeguards for EHR technology.

HOW WE DID THIS STUDY
We administered an online questionnaire to the 864 hospitals that received Medicare
incentive payments as of March 2012. The questionnaire focused on the presence of
features and capabilities in Certified EHR Technology based on the RTI-recommended
safeguards regarding audit functions, EHR user authorization and access, and EHR data
transfer. We also conducted onsite structured interviews with hospital staff and observed
a demonstration of the hospitals’ Certified EHR Technology in eight hospitals. Finally,
we conducted structured surveys with four EHR vendors and asked them the extent to
which they had incorporated recommended fraud safeguards into their products.

WHAT WE FOUND
Nearly all hospitals with EHR technology had RTI-recommended audit functions in
place, but they may not be using them to their full extent. In addition, all hospitals
employed a variety of RTI-recommended user authorization and access controls. Nearly
all hospitals were using RTI-recommended data transfer safeguards. Almost half of
hospitals had begun implementing RTI-recommended tools to include patient
involvement in anti-fraud efforts. Finally, only about one quarter of hospitals had
policies regarding the use of the copy-paste feature in EHR technology, which, if used
improperly, could pose a fraud vulnerability.

WHAT WE RECOMMEND
We recommend that audit logs be operational whenever EHR technology is available for
updates or viewing. We also recommend that ONC and CMS strengthen their
collaborative efforts to develop a comprehensive plan to address fraud vulnerabilities in
EHRs. Finally, we recommend that CMS develop guidance on the use of the copy-paste
feature in EHR technology. CMS and ONC concurred with all of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings........................................................................................................9 

     Nearly all hospitals with EHR technology had RTI-recommended 

     audit functions in place, but they may not be using them to their full 

     extent......................................................................................................9 


     All hospitals employed a variety of RTI-recommended user 

     authorization and access controls.........................................................12 


     Nearly all hospitals were using RTI-recommended data transfer 

     safeguards ............................................................................................13 

     Almost half of hospitals had begun implementing 

     RTI-recommended tools to include patient involvement in 

     anti-fraud efforts ..................................................................................13 


     Only about one quarter of hospitals had policies regarding the 

     use of the copy-paste feature in EHR technology ................................14 


Conclusion and Recommendations ............................................................15 


     Agency comments and Office of Inspector General response .............17 


Appendixes ................................................................................................18 

     A: RTI Recommendations and General Consistency With 

     ONC Certification Criteria or CMS Meaningful Use ..........................18 

     B: Nonrespondent Analysis.................................................................20 

     C: Agency Comments .........................................................................21 

Acknowledgments......................................................................................26 

                  OBJECTIVES
                  1.	 To assess the extent to which hospitals that had received electronic
                      health record (EHR) Medicare incentive payments implemented
                      recommended fraud safeguards for EHR technology in the following
                      categories:
                              audit functions, 

                              user authorization and access controls,

                              data transfer standards, and 

                              patient involvement in anti-fraud activity.

                  2.	 To assess the extent to which hospitals had implemented policies to
                      address inappropriate copy-paste in EHRs.

                  BACKGROUND
                  Electronic Health Records
                  EHRs replace traditional paper medical records with computerized
                  recordkeeping to document and store patient health information. EHRs
                  may include patient demographics, progress notes, medications, medical
                  history, and clinical test results from any health care encounter.1 Vendors
                  create EHR technology that includes a variety of applications and tools for
                  collecting, managing, and sharing patient information electronically and
                  for clinical decisionmaking.
                  Health Information Technology for Economic and Clinical
                  Health Act
                  The Health Information Technology for Economic and Clinical Health Act
                  (HITECH) Act was enacted as part of the American Recovery and
                  Reinvestment Act of 2009 (ARRA) to support the development of a
                  nationwide health information technology infrastructure that allows for the
                  electronic use and exchange of information.2 Its goal is to achieve
                  widespread adoption of EHRs by 2014. The Office of the National
                  Coordinator for Health Information Technology (ONC) coordinates the
                  adoption, implementation, and exchange of EHRs.
                  To encourage adoption and meaningful use of EHRs, ARRA also
                  established the Medicare and Medicaid EHR incentive programs.3 Since

                  1
                    CMS, Electronic Health Records Overview. Accessed at http://www.cms.gov on Jan.

                  11, 2011.

                  2
                    P.L. 111-5, Title XIII.

                  3
                    ARRA, Title IV, P.L. 111-5. 




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   1
                  2011, the Centers for Medicare & Medicaid Services (CMS) has paid
                  $13.5 billion in incentive payments to eligible professionals and hospitals
                  that demonstrate meaningful use of Certified EHR Technology.4 Medicare
                  professionals and hospitals will face payment adjustments under Medicare
                  starting in 2015 for failing to successfully demonstrate meaningful use of
                  Certified EHR Technology.5
                  EHR Certification Criteria. Hospitals must use Certified EHR
                  Technology to receive EHR incentive payments. Certified EHR
                  Technology must be able to perform specified functions, such as enabling
                  a user to electronically record, modify, and retrieve patient information.6
                  ONC oversees the EHR certification process.
                  Meaningful Use Criteria. Federal regulations established meaningful use
                  measures for hospitals.7 These measures address EHR capabilities meant
                  to improve health care quality and efficiency, such as computerized
                  provider order entry, e-prescribing, and exchange of key clinical
                  information. CMS is promulgating regulations specifying criteria to meet
                  meaningful use in three stages.8 Stage 1 criteria set the baseline for
                  electronic data capture and information sharing. CMS released Stage
                  2 final rules in September 2012, which focus on advanced functionality of
                  EHRs, including interoperability, patient engagement, clinical decision
                  support, and quality measurement.9 CMS expects to propose
                  Stage 3 criteria at a later date.
                  EHR Fraud Vulnerabilities
                  The full extent of health care fraud is unknown, but it is substantial. The
                  annual cost of health care fraud is between $75 billion and $250 billion.
                  These figures are based on CMS estimates of total health care
                  expenditures in 2009.10 Experts in health information technology caution


                  4
                   CMS, Medicare and Medicaid Incentive Provider Payments by State. Program Type:
                  January 2011-March 2013. Accessed at http://www.cms.gov on April 25, 2013. 

                  5
                    See §§ 1848(a)(7), 1853(l)(4), and 1886 (b)(3)(B), as enacted in ARRA. See also CMS, 

                  CMS Finalizes Requirements for the Medicare EHR Incentive Program. Accessed at 

                  http://www.cms.gov on Jan. 3, 2012. 

                  6
                    45 CFR §§ 170.302, 170.306, and 170.314. At the time of our review, hospitals were

                  required to be certified as meeting the 2011 EHR Certification Criteria to receive EHR 

                  incentive payments. Beginning on October 1, 2013, hospitals must be certified as 

                  meeting the 2014 EHR Ceritfication Criteria to receive EHR incentive payments. 

                  7
                    42 CFR Part 495.
                  8
                    CMS, EHR Meaningful Use Overview. Accessed at http://www.cms.gov on March 7,

                  2012. See 42 CFR Part 495. 

                  9
                    77 Fed. Reg. 53968 (Sept. 4, 2012). 

                  10
                     CMS, National Health Expenditure Data. Accessed at http://www.cms.gov on Jan. 3,

                  2012.



Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   2
                  that EHR technology can make it easier to commit fraud.11 Certain EHR
                  documentation features, if poorly designed or used inappropriately, can
                  result in poor data quality or fraud. Below we describe two examples of
                  EHR documentation practices that could be used to commit fraud.
                  Copy-Pasting. Copy-pasting, also known as cloning, allows users to
                  select information from one source and replicate it in another location.12
                  When doctors, nurses, or other clinicians copy-paste information but fail
                  to update it or ensure accuracy, inaccurate information may enter the
                  patient’s medical record and inappropriate charges may be billed to
                  patients and third-party health care payers. Furthermore, inappropriate
                  copy-pasting could facilitate attempts to inflate claims and duplicate or
                  create fraudulent claims.
                  Overdocumentation. Overdocumentation is the practice of inserting false
                  or irrelevant documentation to create the appearance of support for billing
                  higher level services. Some EHR technologies auto-populate fields when
                  using templates built into the system. Other systems generate extensive
                  documentation on the basis of a single click of a checkbox, which if not
                  appropriately edited by the provider, may be inaccurate. Such features can
                  produce information suggesting the practitioner preformed more
                  comprehensive services than were actually rendered.13
                  Recommended EHR Fraud Management Safeguards
                  In 2006, ONC contracted with RTI International (RTI) to develop
                  recommendations to enhance data protection; increase data validity,
                  accuracy, and integrity; and strengthen fraud protection in EHR
                  technology. RTI convened industry experts, including providers, payers,
                  and EHR technology vendors, to develop 14 functional recommendations
                  that offer the highest benefit in reducing waste due to fraud and data
                  inaccuracies.14 These recommendations addressed several types of
                  vulnerabilities, including copy-paste and overdocumentation. RTI


                  11
                     Dougherty, Michelle. HIT Policy Committee Hearing on Clinical Documentation,
                  February 13, 2013. Accessed at http://www.healthit.gov on March 19, 2013.
                  12
                     Association of American Medical Colleges, Compliance Officers’ Forum. Appropriate
                  Documentation in an EHR: Use of Information That Is Not Generated During the
                  Encounter for Which the Claim Is Submitted: Copying/Importing/Scripts/Templates. July
                  11, 2001.
                  13
                     Dougherty, Michelle. HIT Policy Committee Hearing on Clinical Documentation,
                  February 13, 2013. Accessed at http://www.healthit.gov on March 19, 2013.
                  14
                     ONC, Recommended Requirements for Enhancing Data Quality in Electronic Health
                  Record Systems. June 2007. Accessed at
                  http://www.rti.org/pubs/enhancing_data_quality_in_ehrs.pdf on May 20, 2013.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   3
                      reported that incorporating these 14 recommendations could increase data
                      quality and reduce exposure to “new and ever-evolving forms of
                      electronically enabled health care fraud.” (See Table 1. Numbers in
                      parentheses are the RTI recommendation numbers.)
                      Usage policies and technology features could help prevent EHR fraud if
                      used consistently. However, providers that use EHR technology can
                      disable or bypass these features, potentially making them ineffective. For
                      this analysis, we have grouped the 14 recommendations into categories of
                      fraud safeguards, including: audit functions, user authentication and
                      access controls, data transfer standards, and patient involvement in anti-
                      fraud.

Table 1: RTI Recommendations Grouped Into Fraud Safeguard Categories
 RTI Recommendations
 Audit Functions
   1) Requires the use of an audit log function and specifies audit log operation and content for tracking EHR updates. (4.2.1)
   2) Requires that the methods (i.e., copy/paste, direct entry, import) for any update to an EHR be documented and tracked.
      (4.2.4)
   3) Requires that the user ID of the original author be tracked when an EHR update is entered “on behalf” of another author
      (i.e., distinguish between entries made by an assistant and a provider). (4.2.6)
   4) Requires that EHR technology be able to record and indicate the method used to confirm patient identity (i.e., photo
      identification, prior relationship). (4.2.11)
   5) Requires that original EHR documents be retained after they are signed off and modifications be tracked as amendments.
      (4.2.7)
 User Authorization and Access Controls

   6) Requires the use of user IDs and passwords to restrict unauthorized access to EHRs. (4.2.3)
   7) Requires the use of a provider’s National Provider Identifier to restrict EHR access and track updates to EHRs by author.
      (4.2.2)
   8) Requires that EHR technology support an “auditor” class of user to have read-only access to patient records. (4.2.8)
 Data Transfer Standards
   9) Requires that a document ID tracking number be generated and attached to an EHR any time an EHR is exported (i.e.,
      printed or electronically communicated). (4.2.9)
   10) Requires that EHRs be exchanged using certain data standards (encryption) to ensure that data have not been altered
       during the transmission. (4.2.13)
   11) Requires that EHR technology have the capacity to directly capture clinical information in structured and coded data and
       not impact EHR user productivity. (4.2.12)
 Patient Involvement in Anti-Fraud
   12) Requires that patients be able to access and comment within their EHRs. (4.2.10)

 Other
   13) Requires that information transmitted for payment of claims be accurately linked and tracked to the appropriate EHR.
       (4.2.14)
   14) Requires that EHR technology not prompt an EHR user to add documentation but be able to alert a user to
       inconsistencies between documentation and coding. (4.2.5)


 Source: OIG analysis of RTI’s recommended requirements for enhancing data quality in EHR systems, 2013.




 Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)                4
                  Audit Functions. Audit functions, such as audit logs, track access and
                  changes within a record chronologically by capturing data elements, such
                  as date, time, and user stamps, for each update to an EHR. An audit log
                  can be used to analyze historical patterns that can identify data
                  inconsistencies. To provide the most benefit in fraud protection, audit logs
                  should always be operational while the EHR is being used and be stored as
                  long as clinical records. Users should not be able to alter or delete the
                  contents of the audit log.
                  User Authorization and Access Controls. Access controls are policies and
                  EHR technology features that require unique identifiers, passwords, and
                  user authentication to help prevent inappropriate access to EHRs. Such
                  access controls discourage fraud schemes that involve stealing provider
                  and patient information to submit false claims. These controls can also
                  validate claims by verifying that services align with provider profiles
                  associated with unique identifiers.
                  Data Transfer Standards. These standards are technology features that
                  restrict the printing, transferring, or exporting of EHR data by requiring a
                  distinct authorization and additional documentation and tracking elements.
                  Unrestricted export of EHRs could make patient information readily
                  available to create fraudulent claims.
                  Patient Involvement in Anti-Fraud. EHR technology can allow patients to
                  view their medical records and make comments in their EHRs. Patients
                  may be able to help detect potentially fraudulent activity by identifying
                  errors and validating the services that they receive from their providers.
                  In addition, these 14 recommendations can be broken down into
                  60 individual criteria, one-third of which focus on audit log functions and
                  features, highlighting audit logs as an important fraud safeguard.
                  Although ONC posted RTI’s recommendations on its Web site, its
                  certification criteria and CMS’s meaningful use measures do not
                  specifically address all of RTI recommendations. For example, RTI lists
                  detailed requirements for the functions that the audit log should be able to
                  perform. Although ONC certification criteria require that certified EHRs
                  have an audit log, they do not require it to be operational at all times as
                  recommended by RTI. (See Appendix A for a summary of RTI’s
                  14 requirements and general consistency with ONC certification criteria or
                  CMS meaningful use objectives).




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   5
                  Related Office of Inspector General Work
                  The Office of Inspector General (OIG) will release a companion report to
                  this one that describes the program integrity practices CMS and its
                  contractors have implemented in light of EHR adoption.15 OIG considers
                  the effective use of data and technology, including EHRs, to be a top
                  management challenge facing the Department and its operating divisions.16
                  In 2012, OIG released a report on physicians’ reported use of EHR
                  technology that found that 57 percent of Medicare physicians used an
                  EHR at their primary practice locations in 2011. Additionally, three of
                  every four Medicare physicians with an EHR system used a certified
                  system to document evaluation and management services. 17 OIG is
                  currently determining the extent to which documentation errors were
                  facilitated by using EHR technology.18
                  In 2012, OIG released a study that found that CMS faces obstacles to
                  overseeing the Medicare EHR incentive program that leave the program
                  vulnerable to paying incentives to professionals and hospitals that do not
                  fully meet the meaningful use requirements.19
                  In 2011, OIG released an audit of information technology (IT) controls in
                  health IT standards. OIG found that ONC EHR certification criteria
                  focused on IT security application controls for communication between
                  EHR systems, but did not include basic, general IT security controls.20




                  15
                     OIG, CMS and Its Contractors Have Adopted Few Program Integrity Practices To

                  Address Vulnerabilities in EHRs, OEI-01-11-00571, in progress. 

                  16
                     OIG, 2012 Top Management and Performance Challenges, 2012. 

                  17
                     OIG, Use of Electronic Health Record Systems in 2011Among Medicare Physicians

                  Providing Evaluation and Management Services, OEI-04-10-00184, June 2012. 

                  18
                     OIG, OEI-04-10-00182, in progress.
                  19
                     OIG, Early Assessment Finds That CMS Faces Obstacles in Overseeing the Medicare
                  EHR Incentive Program, OEI-05-11-00250, November 2012.
                  20
                     OIG, Audit of Information Technology Security Included in Health Information
                  Technology Standards, A-18-09-30160, May 2011.



Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   6
                  METHODOLOGY
                  SCOPE
                  This study determined the extent to which hospitals that received EHR
                  Medicare incentive payments between January 2011 and March 2012
                  implemented safeguards to protect against health care fraud. This study
                  also assessed the extent that hospitals have implemented copy-paste
                  policies.
                  Data Sources
                  Hospital Questionnaires: We administered an online questionnaire to
                  864 hospitals between October 2012 and January 2013 to learn about the
                  Certified EHR Technology hospitals are using. We obtained a list from
                  CMS of all hospitals (877) that received Medicare incentive payments for
                  demonstrating meaningful use of Certified EHR Technology as of March
                  2012. The questionnaire focused on the presence of features and
                  capabilities in Certified EHR Technology based on the RTI-recommended
                  safeguards regarding audit logs, EHR access, and EHR data transfer. The
                  questionnaire also asked about barriers to adopting selected RTI
                  recommended fraud and abuse safeguards. Prior to our data collection, we
                  reviewed the RTI recommendations with ONC, CMS, and external
                  stakeholders and confirmed that these recommendations were relevant and
                  appropriate. We had a 95-percent response rate. See Appendix B for a
                  nonrespondent analysis.
                  Hospital Site Visits: We chose eight hospitals for site visits on the basis of
                  geographic diversity, number of beds, and ownership type. While onsite,
                  we conducted structured interviews with hospital staff and observed a
                  demonstration of the hospitals’ Certified EHR Technology. We conducted
                  site visits in August and September 2012.
                  EHR Vendor Interviews: We conducted structured interviews with four
                  EHR vendors that develop Certified EHR Technology products for
                  hospitals. We selected five EHR vendors that together represented at least
                  50 percent of the market share of Certified EHR Technology products
                  used in hospitals that received Medicare incentive payments. We removed
                  one EHR vendor/health care company from our sample because its
                  products were not commercially available and were designed for its own
                  health care facilities. We asked EHR vendors about the extent to which
                  they had incorporated recommended fraud and abuse safeguards into their
                  products. We had a 100-percent response rate to our request for
                  interviews.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   7
                  Limitations
                  Our analysis used self-reported data from hospitals and EHR vendors. We
                  did not independently verify their responses. This study did not assess
                  whether individual EHR technology products were capable of
                  implementing RTI recommendations. We also did not verify that
                  hospital’s EHR technology met ONC certification criteria as all the
                  hospitals we surveyed attested to using ONC certified technology. In
                  addition, we did not address vulnerabilities associated with hardware or
                  those covered under the Health Insurance Portability and Accountability
                  Act of 1996 (HIPAA) Security Rule.
                  Our analysis did not assess each of the 60 individual criteria specified in
                  the 14 recommendations that RTI developed. Changes in EHR technology
                  made some criteria less relevant to our assessment than when they were
                  developed 6 years ago.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   8
                  FINDINGS
                  Nearly all hospitals with EHR technology had
                  RTI-recommended audit functions in place, but they
                  may not be using them to their full extent
                  Ninety-six percent of hospitals reported that their audit logs remain
                  operational at all times despite reporting barriers, including limited human
                  resources, a lack of vendor-provided audit log user guides, and inadequate
                  training on audit log functionality. Audit logs monitor user activity and
                  are an important tool against fraud in EHRs. They are so important that
                  one-third of RTI’s recommended safeguards concern audit log operation
                  and content.
                  Hospitals’ EHR audit logs captured most RTI-recommended
                  data
                  Generally, hospitals’ audit logs captured the RTI-recommended data for
                  each entry or access to the EHR, modification to the EHR, and signature
                  event.21 Almost all hospitals’ audit logs recorded the date and time of
                  entry, the user identification, and the type of access to the EHR (e.g.,
                  creating, editing, viewing). See Table 2 for details on the data that
                  hospitals’ EHR audit logs capture.
                  Fewer hospitals’ audit logs captured data when an EHR user released an
                  encounter for billing, exported or imported an EHR document, or disabled
                  the audit log. In addition, hospital audit logs are less likely to record the
                  method of data entry (e.g., direct text entry, speech recognition,
                  automated) or the original date, time, and user identification when data are
                  copy-pasted.




                  21
                       A signature event is the proactive or auto default completion of a patient encounter.



Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)        9
Table 2: Percentage of Hospitals That Report Their Audit Logs Capture RTI-Recommended
Data

                                                                                                Percentage of Hospitals’
    When Data Are Recorded
                                                                                                             Audit Logs

    Each entry or access to an EHR                                                                                 99%
    Each time a user modifies an EHR                                                                               99%
    Each signature event (proactive or automatic completion of an encounter)                                       92%
    Each time a user releases an encounter for billing                                                             85%
    Each export of an EHR document                                                                                 81%
    Each import of an EHR document                                                                                 79%
    Each time a user disables the audit log                                                                        61%

                                                                                                Percentage of Hospitals’
    What Data Are Recorded
                                                                                                             Audit Logs

    Date, time, and user identification                                                                           100%
    Access type (creating, editing, or viewing data)                                                               96%
    Synchronized network time protocol                                                                             80%
    Data, time, user ID of original author when data are entered on behalf of another                              67%
    Internet protocol address (i.e., location of user accessing EHR)                                               61%
    Date, time, user ID of original author when data are copied                                                    49%
    The method used when data are entered into the EHR (such as direct text entry,
                                                                                                                   44%
    speech recognition, automated, copy-paste)
    National Provider Identifier                                                                                   33%

                                                                                            .
 Source: OIG analysis of hospitals’ responses to Certified EHR Technology questionnaire, 2012




                       Most hospitals stored audit log data according to RTI
                       recommendations
                       Some EHR vendors we spoke with stated that costs associated with
                       additional storage space for audit logs may be a challenge for some
                       hospitals; nevertheless, 67 percent of hospitals reported storing audit log
                       data indefinitely. Only 10 percent of hospitals reported storing audit log
                       data for less than 5 years. See Table 3 for how long hospitals reported
                       storing audit log data. One vendor explained that it was easy to add
                       storage space and discontinue collecting redundant or less useful audit log
                       data to increase storage capacity. Several hospitals reported archiving
                       audit log data prior to deleting them from their servers, which saves space
                       and improves system processing speeds. RTI recommends that hospitals
                       store audit log data as long as clinical records. This is important so that
                       audit log data are available for fraud detection.




 Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)                   10
             Table 3: Length of Time Hospitals Reported Storing Audit Log Data

                           Length of Time Audit               Percentage of
                           Log Data Are Stored                    Hospitals

                           ≤ 12 months                                     5%

                           1-5 years                                       5%

                           6-10 years                                      9%

                           ≥ 11 years                                      1%

                           Indefinitely                                   67%

                           Other                                          13%

                                                                                                             .
                  Source: OIG analysis of hospitals’ responses to Certified EHR Technology questionnaire, 2012


                  Hospitals’ control over audit logs may be at odds with their RTI-
                  recommended use as fraud safeguards
                  RTI recommends that EHR users not be allowed to delete the contents of
                  their audit log so that data are always available for fraud detection, yet
                  nearly half of hospitals (44 percent) reported that they can delete their
                  audit logs. Although these hospitals reported that they limit the ability to
                  delete the audit log to certain EHR users, such as system administrators,
                  one EHR vendor noted that any software programmer could delete the
                  audit log.
                  RTI recommends that the ability to disable the audit log be limited to
                  certain individuals, such as system administrators, and that EHR users,
                  such as doctors and nurses, be prevented from editing the contents of the
                  audit log because these actions can compromise the audit log’s
                  effectiveness. Hospitals reported they have the ability to disable
                  (33 percent) and edit (11 percent) their audit logs, although they reported
                  restricting those abilities to certain EHR users, such as system
                  administrators or EHR vendors. All four EHR vendors we spoke with
                  reported that the audit logs cannot be disabled in their products, but one
                  vendor again noted that a programmer could disable the audit log.

                  Most hospitals reported analyzing audit log data; however, their
                  efforts appeared limited to ensuring privacy of patient data
                  rather than detecting and preventing fraud and abuse
                  None of the hospitals we visited analyzed their audit logs to prevent or
                  detect fraud, such as by identifying duplicate or fraudulent claims and
                  inflated billing. Rather, all eight hospitals we visited described their audit
                  log analyses as focused on privacy, such as detecting unauthorized
                  viewing of an EHR of a celebrity, family member, or hospital employee.
                  EHR vendors confirmed that their hospitals use the audit log as a HIPAA

Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)          11
                  compliance tool rather than a tool to detect fraud. One vendor reported
                  that hospitals were generally not aware of all the audit log features
                  available to them. For example, all four EHR vendors explained that they
                  provide standard product implementation and training and that hospitals
                  do not commonly ask for additional audit log training.
                  Most hospitals (95 percent) reported that they analyze audit log data.
                  Forty-six percent of hospitals reported analyzing audit logs monthly, and
                  26 percent of hospitals conducted analysis on an as-needed basis.
                  Hospitals cited barriers to analyzing audit logs, including limited human
                  resources, a lack of vendor-provided user guides for audit log
                  functionality, inadequate training on audit logs, and the inability to
                  interpret audit log data.

                  All hospitals employed a variety of RTI-recommended
                  user authorization and access controls
                  All hospitals reported that they authenticate EHR users via a unique user
                  identification and password. Some hospitals had implemented stronger
                  user authentication tools, such as tokens (21 percent of hospitals), public
                  key infrastructure (14 percent), and biometrics (7 percent). 22 Hospitals
                  also reported implementing additional safeguards to ensure appropriate
                  access to the EHRs. Over 98 percent of hospitals had implemented
                  automatic user logoffs after a set period of time, minimum user password
                  configurations, and user agreements to access EHR technology. Eighty-
                  six percent of hospitals required users to regularly change passwords. RTI
                  recommends that EHR technology support strong user access
                  authentication safeguards that evolve as technology advances to limit
                  inappropriate access to EHRs.
                  Eighty-six percent of hospitals allowed outside entities to access their
                  EHR data. Hospitals may define outside entities differently to include a
                  variety of individuals and organizations, such as insurance companies,
                  auditors, hospital-contracted provider groups, and physicians. Hospitals
                  allowed both remote and onsite access depending on the relationships and
                  reasons for access. All but one of the hospitals we visited allowed hospital
                  physicians remote access to the EHR system, although the access
                  privileges varied. Some of these hospitals limited access to certain
                  patients or to view-only screens.



                  22
                    Tokens may include a series of randomly generated numbers, biometrics include
                  fingerprint or retinal scans, and public key infrastructure is a high-level encryption
                  standard.



Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)    12
                  Nearly all hospitals that allowed outside entities to access their EHR data
                  tracked access via a unique identifier (99 percent), and nearly as many
                  limited outside entity access (95 percent). In addition, 96 percent did not
                  allow outside entities access to the audit logs. Five of the hospitals we
                  visited allowed outside entities access although they limited access to
                  specific patients, claims, or information and allowed view-only access.
                  RTI recommends that certain outside entities have limited access to EHR
                  data to allow for a greater ability to detect fraud.

                  Nearly all hospitals were using RTI-recommended data
                  transfer safeguards
                  Eighty-eight percent of hospitals reported having limits on which EHR
                  users can export, transfer, or print EHR data. However, only 27 percent of
                  hospitals reported that they require users to provide a reason before
                  exporting, transferring, or printing EHR data. RTI recommends
                  safeguards to restrict the export, transfer, or printing of EHR data so that
                  patient information is not readily available to create fraudulent claims.

                  Almost half of hospitals had begun implementing RTI-
                  recommended tools to include patient involvement in
                  anti-fraud efforts
                  Forty-three percent of hospitals reported that they allow patients to view
                  either components of their EHRs or their entire EHRs electronically.
                  Hospitals and EHR vendors we spoke with revealed that hospitals were
                  beginning to implement patient access features to achieve Meaningful Use
                  Stage 2. Few hospitals had implemented additional features to allow
                  patients a stronger role in detecting fraud. For example, 9 percent of
                  hospitals allowed patients to comment in their EHRs, to view the entities
                  to which the hospitals released their EHRs, or to view entities that
                  accessed their EHRs. RTI recommends that patients have access to their
                  EHRs and the ability to comment in their EHRs. This could enable
                  patients to detect fraud by identifying errors and validating the services
                  that they received.
                  Hospitals reported several barriers to allowing patients’ access to their
                  EHRs, including the inability of EHR technology to support the capability,
                  the inability to integrate with existing systems, funding restrictions,
                  resistance from physicians, and concerns with patient privacy. EHR
                  vendors echoed some of these barriers. According to one EHR vendor we
                  spoke with, physicians are especially hesitant to allow patients to
                  communicate to providers and comment in the EHRs. Another EHR
                  vendor told us that its small rural hospitals lack the patient demand for
                  such a feature. Finally, one EHR vendor explained that providing patient

Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   13
                  access tends to be one of the last features a hospital implements after
                  focusing on initiating other EHR functions.

                  Only about one quarter of hospitals had policies
                  regarding the use of the copy-paste feature in EHR
                  technology
                  Although the copy-paste feature in EHRs can enhance efficiency of data
                  entry, it may also facilitate attempts to inflate, duplicate, or create
                  fraudulent health care claims. RTI acknowledges the potential for misuse
                  of the copy-paste feature in EHRs and suggests that specific warnings
                  directed to EHR users be considered. Further, RTI recommends that the
                  use of such tools be captured in the audit log. However, only 24 percent
                  of hospitals had policies in place regarding use of copy-paste, and only
                  44 percent of hospital audit logs recorded the method of data entry
                  (e.g., copy-paste, direct text entry, speech recognition) when data are
                  entered into the EHR.
                  Even the hospitals that had policies seemed to have limited control over
                  the use of the copy-paste feature. Most of these hospital policies
                  (61 percent) shifted the responsibility to the EHR user to confirm that any
                  copied-pasted data were accurate. Twenty-two percent of hospitals’
                  policies advised EHR users to avoid “indiscriminately copy-pasting,” and
                  21 percent of policies required EHR users to cite the original source of the
                  copied-pasted data. In addition, 51 percent of hospitals reported that they
                  are unable to customize the copy-paste feature in their EHR technology,
                  for example, by restricting its use or disabling it. Furthermore, the EHR
                  vendors we spoke with explained that the copy-paste feature cannot be
                  disabled or altered. One EHR vendor offered that it discourages hospitals
                  from copy-pasting progress notes or copy-pasting identical text in records
                  of multiple patients.
                  Copy-paste is most useful with facilitating data entry of physicians’
                  progress notes; however, few hospitals had fully implemented that
                  function. Only 4 percent of hospitals reported they had fully implemented
                  electronic progress notes. Most hospitals (73 percent) reported having a
                  combination of electronic and handwritten or dictated physician progress
                  notes. Although this feature may enhance efficiency, it is vulnerable to
                  fraudulent use.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   14
                  CONCLUSION AND RECOMMENDATIONS
                  In the Department of Health and Human Services’ efforts to promote EHR
                  adoption, it focused largely on developing criteria, defining meaningful
                  use, and administering incentive payments. It gave less attention to the
                  risks EHRs may pose to program integrity of Federal health care
                  programs. Although ONC contracted with RTI to develop a list of
                  recommended safeguards for EHR technology, the Department did not
                  directly address all of these safeguards through certification criteria or
                  meaningful use requirements. This review found that, on their own
                  initiative, hospitals were employing EHR fraud and abuse safeguards to
                  varying degrees. However, the Department must do more to ensure that
                  all hospitals’ EHRs contain safeguards and that hospitals use them to
                  protect against electronically enabled health care fraud.
                  We recommend that:
                  Audit logs be operational whenever EHR technology is
                  available for updates or viewing
                  Stage 2 EHR Technology Certification Criteria state that the audit log
                  must be set by default at the point of installation to record the data
                  specified in the standard. However, providers may disable the audit log at
                  any point. The Department should ensure that providers cannot or do not
                  disable audit logs whenever EHR technology is available for updates or
                  viewing. Requiring that audit logs be operational in this manner
                  reinforces their importance and conveys the Department’s expectation that
                  they will be used to detect fraud and abuse. To that end, we offer two
                  options:
                      	 ONC could propose a change to its EHR certification criteria,
                         through rulemaking, to require that EHR technology keep the audit
                         log operational whenever the EHR technology is available for
                         updates or viewing.
                      	 Alternatively, CMS could update its meaningful use criteria to
                         require providers to keep the audit log operational whenever EHR
                         technology is available for updates or viewing.
                  ONC and CMS strengthen their collaborative efforts to develop
                  a comprehensive plan to address fraud vulnerabilities in EHRs
                  The Department has a responsibility to address the risks that EHRs pose to
                  program integrity for Federal health programs. Toward that end, in May
                  2013, ONC and CMS jointly convened stakeholders to discuss appropriate
                  coding in an electronic environment. This is a promising start, and they
                  should build on it to develop a formal strategy aimed at detecting and
                  reducing fraud in EHRs.

Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   15
                  In July 2013, ONC released the Health IT Safety Action and Surveillance
                  Plan, which integrated the efforts of ONC, CMS, and the Agency for
                  Healthcare Research and Quality to make patient care safer through the
                  use of health IT.23 ONC and CMS could use this approach to develop a
                  strategy to detect and reduce fraud in EHRs. It may also offer the
                  Department the opportunity to establish clear responsibility for program
                  integrity among the agencies that run its health IT programs.
                  CMS develop guidance on the use of the copy-paste feature in
                  EHR technology
                  Because many hospitals cannot customize the copy-paste feature in EHR
                  technology, the need for policies to govern its use is elevated. The copy-
                  paste feature can be used appropriately and enhance efficiency; however,
                  this feature also poses risks. CMS should work with ONC and hospitals to
                  develop guidelines for using the copy-paste feature in EHR technology.
                  Specifically, CMS should consider whether the risks of some copy-paste
                  practices outweigh their benefits. For example, CMS could provide
                  guidance to hospitals on copy-pasting identical text in records of multiple
                  patients.




                  23
                    ONC, Health Information Technology Patient Safety Action & Surveillance Plan for
                  Public Comment, December 21, 2012. Accessed at www.healthit.gov on May 2, 2013.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   16
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS and ONC concurred with all three of our recommendations.
                  To address our recommendation that the audit log be operational at all
                  times, ONC will propose the appropriate revision to the auditable events
                  certification criteria in the next available and relevant rulemaking cycle.
                  CMS responded that it supports ONC’s development of certification
                  criteria toward this goal.
                  To address our recommendation about developing a comprehensive plan
                  to address fraud vulnerabilities in EHRs, ONC stated that it was
                  committed to providing technical assistance to other Federal agencies with
                  health care fraud enforcement authority. CMS commented that it audits
                  hospitals to ensure the integrity of the EHR incentive payments.
                  However, our recommendation concerned plans to address fraud
                  vulnerabilities directly related to Medicare health claims. We ask CMS to
                  address these vulnerabilities in its final management decision
                  To address our final recommendation that CMS develop guidance on the
                  use of the copy-paste feature, CMS stated that it will develop guidelines to
                  ensure that this feature is used to appropriately.
                  For a full text of CMS and ONC’s comments, see Appendix C.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   17
                      APPENDIX A
                      RTI Recommendations and General Consistency With ONC
                      Certification Criteria or CMS Meaningful Use
RTI Recommendation        Description                                 General Consistency With ONC Certification Criteria or CMS
                                                                      Meaningful Use Objectives

Audit Functions

1)   Audit Functions      Requires the use of an audit log function   Certified EHR Technology is required to have an audit log that can
     and Features         and specifies audit log operation and       be disabled only by authorized users, cannot be altered or deleted,
                          content for tracking EHR updates.           and must be enabled by default but is not required to be operational
                                                                      at all times. 45 CFR § 170.314(d)(2)

2)   Documentation        Requires that the methods (i.e.,            ONC certification criteria and CMS meaningful use objectives do not
     Process Issues       copy/paste, direct entry, import) for any   specifically address this requirement.
                          update to an EHR be documented and
                          tracked.

3)   Proxy Authorship     Requires that the user ID of the original   ONC notes that Certified EHR Technology is required to be capable
                          author be tracked when an EHR update        of assigning the type of access and the actions the user can perform
                          is entered “on behalf” of another author.   based on unique identifier(s). 45 CFR § 170.314 (d)(1)
                          (i.e., distinguish between entries made
                                                                      However, ONC certification criteria and CMS meaningful use
                          by an assistant and a provider.)
                                                                      objectives do not specifically address this requirement.

4)   Record               Requires that original EHR documents        Certified EHR Technology is required to have an audit log that tracks
     Modification After   be retained after they are signed off and   when a user makes any changes to a record (with pointer to original
                          modifications be tracked as                 state). In addition, for patient-supplied information, EHR Technology
     Signature
                          amendments.                                 must allow users to select the record and append the amendment.
                                                                      45 CFR § 170.210(h); 45 CFR § 170.314(d)(4)

5)   Patient Identity-    Requires that EHR technology be able to     ONC notes that Certified EHR Technology is required, through an
     Proofing             record and indicate the method used to      electronic exchange, to properly match a transition of care/referral
                          confirm patient identity (i.e., photo       summary to the correct patient when a patient is transferred or
                          identification, prior relationship).        referred to another care setting. 45 CFR 170.314(b)(1)(iii)(A)

                                                                      However, ONC certification criteria and CMS meaningful use
                                                                      objectives do not specifically address this requirement.

User Authorization and Access Controls

6)   Provider             Requires the use of a provider’s NPI to     Certified EHR Technology is required to verify against unique
     Identification       restrict EHR access and track updates to    identifier(s) that a person seeking access is the one claimed. The
                          EHRs by author.                             type of access and the actions the user can perform must be based
                                                                      on unique identifier(s). EHR technology must also record actions of
                                                                      user. 45 CFR § 170.314 (d)(1); 45 CFR § 170.314 (d)(2)

7)   User Access          Requires the use of user IDs and            Certified EHR Technology is required to verify against unique
     Authorization        passwords to restrict unauthorized          identifier(s) that a person seeking access is the one claimed. The
                          access to EHRs.                             type of access and the actions the user can perform must be based
                                                                      on unique identifier(s). 45 CFR § 170.314 (d)(1)




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)                  18
8)   Auditor Access to    Requires that EHR technology support        ONC notes that Certified EHR Technology is required to be capable
     Patient Record       an “auditor” class of user to have read-    of assigning the type of access and the actions the user can perform
                          only access to patient records.             based on unique identifier(s). 45 CFR § 170.314 (d)(1)

                                                                      However, ONC certification criteria and CMS meaningful use
                                                                      objectives do not specifically address this requirement.

Data Transfer Standards

9)   EHR Traceability     Requires that a document ID tracking        ONC notes that Certified EHR Technology is required to have an
                          number be generated and attached to an      audit log that tracks when health information is printed, copied, or
                          EHR any time an EHR is exported (i.e.,      queried. EHR technology is also required, through an electronic
                          printed or electronically communicated).    exchange, to properly match the transition of care/referral summary
                                                                      to the correct patient when a patient is transferred or referred to
                                                                      another care setting. 45 CFR 170.314(b)(1)(iii)(A).

                                                                      However, ONC certification criteria and CMS meaningful use
                                                                      objectives do not specifically address this requirement.

10) Structured and        Requires that EHR technology have the       ONC certification criteria generally require structured and coded data
     Coded Data           capacity to directly capture clinical       for certain information, including among other data, problem lists,
                          information in structured and coded data    demographics, smoking status, and laboratory test results, and CMS
                          and not impact EHR user productivity.       meaningful use objectives require that data be recorded in structured
                                                                      form in order to meet certain objectives.

11) Integrity of EHR      Requires that EHRs be exchanged using       Certified EHR Technology must create a message digest and verify
     Transmission         certain data standards (encryption) to      upon receipt of electronically exchanged health information that such
                          ensure data have not been altered           information has not been altered as specified in 45 CFR §170.210(c).
                          during the transmission.                    45 CFR §170.314(d)(8); 45 CFR §170.314(d)(7); 45 CFR
                                                                      §170.314(d)(2)(ii)(c)

Patient Involvement in Anti-Fraud

12) Patient               Requires that patients be able to access    Certified EHR Technology is required to provide patients with an
     Involvement in       and comment within their EHRs.              online means to view, download, and transmit specified data to a
                                                                      third party. In an ambulatory setting, EHR technology must enable a
     Anti-Fraud
                                                                      user to electronically send and receive messages from a patient. In
                                                                      addition, for patient-supplied information, EHR technology must allow
                                                                      users to select the record and append the amendment. 45 CFR
                                                                      §170.314(e)(1); 45 CFR § 170.314(e)(3); 45 CFR § 170.314 (d)(4)

                                                                      Meaningful use requires that more than 50 percent of patients be
                                                                      allowed online access to their health information within 36 hours of
                                                                      discharge from the hospital. 42 CFR §§ 495.6(12)(ii)(B)

Other

13) Accurate Linkage      Requires that information transmitted for   ONC certification criteria and CMS meaningful use objectives do not
     of Claims to         payment of claims be accurately linked      specifically address this requirement.
                          and tracked to the appropriate EHR.
     Clinical Records
14) Evaluation and        Requires that EHR technology not            ONC certification criteria and CMS meaningful use objectives do not
     Management           prompt an EHR user to add                   specifically address this requirement.
                          documentation but be able to alert a user
     Coding
                          to inconsistencies between
                          documentation and coding.



Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)                  19
                  APPENDIX B
                  Nonrespondent Analysis
                  A consideration in surveys or data collection efforts of this type is whether
                  the results may be biased by significant differences between respondents
                  and nonrespondents. To determine whether significant differences exist in
                  this data collection effort, we compared respondents and nonrespondents
                  by whether or not the hospital was a critical access hospital, the State the
                  hospital is located in, and the ownership type of the hospital (i.e., profit,
                  nonprofit, religious organization, physician owned).
                  We achieved a 95-percent response rate with respect to the hospitals
                  sampled. As a result, we had 832 responses and 45 nonresponses to use
                  for this analysis.
                  Our analysis suggests that our survey results were not biased with regard
                  to those variables. A chi-square test showed no relationship between
                  respondents and nonrespondents with respect to whether the hospital was a
                  critical access hospital. In addition, there were no patterns in frequency
                  counts between respondents and nonrespondents for the State the hospital
                  was located in or the ownership type of the hospital.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   20
                  APPENDIXC
                  Agency Comments
                  CMS Comments



                     DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Centers lor Medical'!! & Medicaid Servic


                                                                                               Administrator
                                                              NOV -1 2013                      "Wallllnglon, DC 20201




                    TO: 	          Daniel R. Levinson
                                   Inspector General

                    FROM: 	        Marilyn Tavenner     /S/
                                   Administrator

                    SUBJECT: Office of Inspector General (OIG) Draft Report: "Not All Recommended Fraud
                    Safeguards Have Been Implemented in Hospital EHR Technology," OEI-Ol-ll-00570

                     Thank you for the opportunity to review and comment on the above referenced OIG draft report.
                     The Centers for Medicare & Medicaid Services (CMS) appreciates the contributions by, and
                     valuable input from, the OIG. The draft report assessed how hospitals that received Medicare
                     electronic health record (EHR) incentive payments had implemented recommended fraud
                     safeguards for EHR technology. The information in the report will help inform our
                     administration and oversight of the EHR Incentive Programs.

                     CMS is committed to reducing fraud, waste, and abuse in the EHR Incentive Programs while
                     ensuring that EHRs continue to improve the efficiency and effectiveness of patient care. CMS is
                     conducting prepayment and postpayment audits to determine whether providers are properly
                     receiving meaningful use incentive payments and complying with program rules. Audits of the
                     EHR Incentive Program strengthen our program integrity oversight and help reduce improper
                     payments. If an audit identifies potentially fraudulent activity, these are referred to our Center
                     for Program Integrity for further investigation.

                     The draft report contained three recommendations for CMS and the Department of Health and
                     Human Services' (HHS) Office of the National Coordinator for Health Information Technology
                     (ONC). We address the CMS response to the recommendations below:

                     OIG Recommendation 1:

                     Audit logs be operational whenever EHR technology is available for updates or viewing.
                     ONC could propose a change to its EHR certification criteria, through rulemaking, to require that
                     EHR technology keeps the audit log operational whenever the EHR technology is available for
                     updates or viewing.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11 -00570)                   21
Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   22
Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   23
                      ONC Comments

            ...,     ....
                      ~

               ""'        ~
                       ~~
           (
                   :::kt_         DEPAI<fMENI'OFHEALTH & HUMAN SERVICES 	                                     Offitcoftlle Secretary
                                                                                                              Offitc of the National Coordinator
                                                                                                              for Health Information TcclmoloiY
                                                                                                              Washington, D.C. 20201




                          TO: 	          Daniel R. Levinson 

                                         Inspector General 


                          FROM: 	        Jacob Reider 

                                                         /S/
                                         Acting N ational Coordinator 


                          SUB.JECT: The Offi ce of the National Coordinator for Health Information Technology's
                          Comments to the Office of Inspector General's Draft Report Entitled, Not All
                          Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology,
                          OEI-01-11-00570.

                          Thank you for the opportunity to review and conunent on the findings and reconunendations in
                          the Office of Inspector General's (OIG) draft report, Not All Recommended Fraud Safrguards
                          Have Been Implemented in Hospital EHR Technology, OEI-01-ll-00570. The draft report
                          addresses potential risks certified electronic health records technology may pose. ONC
                          appreciates the OIG's efforts to improve program integrity and address fraud vulnerabilities.

                          The subject evaluation relies heavily on a report, commissioned by ONC and delivered by RTI in
                          2007, that identifies recommendations to address potential EHR vulnerabilities. While thoughtful
                          input at the time, we note that some of this report's recommendations generated much debate in
                          the stakeholder community and were not widely accepted or needed more evaluation as to their
                          feasibility.

                          This response letter addresses the two recommendations from the OIG report that were directed
                          toONC.

                          OIG Recommendation 1:

                          Audit logs be operational whenever EHR technology is available for updates or viewing

                          ONC Res ponse

                          ONC concurs with the recommendation. However, we wish to make clear that we do not have
                          statutory authority to regulate how health care providers use EHR technology once certified ­
                          such as prohibiting providers from modifying their EHR technology to enable certain
                          functionality post-certification. Further, while testing could verify that an EHR technology's
                          audit log is fi.mctioning properly and available, we are presently unsure of the feasibility and
                          difficultly associated with "testing the negative" - that the audit log is never not operdtional ­




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11 -00570)                                24
Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   25
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Joyce Greenleaf, Regional
                  Inspector General for Evaluation and Inspections in the Boston regional
                  office; Kenneth Price, Deputy Regional Inspector General; and Russell
                  Hereford, Deputy Regional Inspector General.
                  Danielle Fletcher served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Boston regional office who
                  conducted the study include Kimberly Yates. Central office staff who
                  provided support include Kevin Manley, Clarence Arnold, and Christine
                  Moritz.




Not All Recommended Fraud Safeguards Have Been Implemented in Hospital EHR Technology (OEI-01-11-00570)   26
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
